TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                           Existing Practices Allowed
                      IRS Contractors to Receive Payments
                         While Owing Delinquent Taxes



                                         February 4, 2011

                              Reference Number: 2011-30-013




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

   Redaction Legend:
   1 = Tax return/Return Information




 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  HIGHLIGHTS


EXISTING PRACTICES ALLOWED IRS                        other Federal agencies. For 8 of these
CONTRACTORS TO RECEIVE                                contractors, the amount of delinquent taxes that
PAYMENTS WHILE OWING DELINQUENT                       could have been collected if the tax accounts
TAXES                                                 had not been blocked from inclusion in the
                                                      Federal Payment Levy Program totaled
                                                      $3.8 million.
Highlights                                            Although delinquent taxes may indicate serious
                                                      issues that could jeopardize contract
Final Report issued on February 4, 2011               performance, it alone rarely precludes a
                                                      contractor from obtaining a contract. Three of
Highlights of Reference Number: 2011-30-013           these contractors owed $3.7 million in
to the Internal Revenue Service Deputy                delinquent taxes at the time their contracts were
Commissioner for Operations Support and               awarded. Furthermore, 7 of the 11 contractors
Commissioner, Small Business/Self-Employed            did not properly follow Federal guidelines to
Division.                                             notify the General Services Administration when
                                                      they had a tax delinquency.
IMPACT ON TAXPAYERS
                                                      WHAT TIGTA RECOMMENDED
The Internal Revenue Service's (IRS) mission is
to provide American taxpayers with top quality        TIGTA recommended that the IRS review its
service by helping them understand and meet           current process to identify opportunities to
their tax responsibilities and by applying the tax    expedite levying Federal contractor cases in a
law with integrity and fairness. TIGTA believes       blocked status and ensure timely enforcement of
contractors that contract with the IRS should be      those in a suspended collection status.
held to a higher compliance standard than other
contractors that conduct business with the            The IRS agreed with our recommendations, but
Federal Government because of the IRS’s               did not agree with our reported outcome
mission to enforce tax laws and ensure                measure of $3.8 million. The IRS stated that the
everyone meets their obligation to pay Federal        calculation TIGTA used to determine the
taxes.                                                revenue considers cases in a suspended
                                                      collection status as available for levy through the
WHY TIGTA DID THE AUDIT                               Federal Payment Levy Program. The IRS
                                                      stated it has a responsibility to investigate the
President Obama directed the Department of the        merit of a taxpayer’s claim before initiating
Treasury and the Office of Management and             enforced collection activity.
Budget to evaluate agencies’ contract award
processes and make recommendations to                 TIGTA agrees the IRS should investigate the
ensure that contractors with serious tax              merit of a taxpayer’s claim before initiating
delinquencies do not receive new work from            enforced collection activity. However, our
Federal agencies. Our overall objective was to        results showed that the contractors were in a
determine why IRS contractors, owing millions of      suspended collection status for an average of
dollars in delinquent taxes and previously            8 months while the IRS evaluated whether the
selected for the Federal Payment Levy Program,        information the contractor provided would
have accounts blocked from levy.                      resolve the tax liability. TIGTA believes the IRS
                                                      could improve the timeliness of these cases by
WHAT TIGTA FOUND                                      taking a more active enforcement approach to
The IRS blocked 11 contractors with delinquent        suspend payments to contractors if they are not
tax liabilities totaling approximately $4.3 million   making attempts to resolve their tax liability
from inclusion in the Federal Payment Levy            within a reasonable time period.
Program. These contractors received more than
$356 million in payments from the IRS and
approximately $3.7 billion in payments from
                                                DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                February 4, 2011


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT
                COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Existing Practices Allowed IRS Contractors to
                                 Receive Payments While Owing Delinquent Taxes
                                 (Audit # 201030029)

 This report presents the results of our review to determine why Internal Revenue Service (IRS)
 contractors, owing millions of dollars in delinquent taxes and previously selected for the Federal
 Payment Levy Program, have accounts blocked from levy. This condition potentially eliminates
 the IRS from easily attaching guaranteed disbursements that can be used to offset the outstanding
 debt and potentially reduce the tax gap.1 This audit was conducted as part of our Fiscal Year
 2010 Annual Audit Plan and addresses the major management challenge of Tax Compliance
 Initiatives.
 Management’s complete response to the draft report is included as Appendix VII.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
 Operations), at (202) 622-8510.




 1
     See Appendix VI for a glossary of terms.
                                     Existing Practices Allowed IRS Contractors
                                 to Receive Payments While Owing Delinquent Taxes




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Guidelines in the Collection Process Delay the Issuance
          of Levies to IRS Contractors That Owe Delinquent Tax
          Liabilities ...................................................................................................... Page 4
                    Recommendation 1:........................................................ Page 7

                    Recommendation 2:........................................................ Page 8

          Improvements Are Needed to Identify IRS Contractors
          With Delinquent Tax Liabilities ................................................................... Page 8
                    Recommendations 3 and 4: .............................................. Page 12


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 13
          Appendix II – Major Contributors to This Report ........................................ Page 16
          Appendix III – Report Distribution List ....................................................... Page 17
          Appendix IV – Outcome Measure ................................................................ Page 18
          Appendix V – Activity of Eleven IRS Contractors’ Tax Accounts
          Blocked From the Federal Payment Levy Program As of March 4, 2010 ... Page 20
          Appendix VI – Glossary of Terms ................................................................ Page 21
          Appendix VII – Management’s Response to the Draft Report ..................... Page 24
           Existing Practices Allowed IRS Contractors
       to Receive Payments While Owing Delinquent Taxes




                 Abbreviations

ACS        Automated Collection System
FAR        Federal Acquisition Regulation
FPLP       Federal Payment Levy Program
FMS        Financial Management Service
IRS        Internal Revenue Service
TIN        Taxpayer Identification Number
                               Existing Practices Allowed IRS Contractors
                           to Receive Payments While Owing Delinquent Taxes




                                             Background

During Fiscal Year 2009, Internal Revenue Service (IRS) contractors represented less than
1 percent of the Federal contract community1 and received approximately $1.6 billion of the
approximately $536 billion spent for all Federal contracts. In 1997, Congress amended the tax
code2 and authorized the IRS to levy specified Federal Government payments through the
Federal Payment Levy Program (FPLP). The FPLP is an automated process that issues tax levies
to collect delinquent Federal taxes through the Financial Management Service (FMS) from
Social Security, Federal agency salaries, retirement, and contract awards. The IRS implemented
the FPLP in Fiscal Year 2000; however, between 2000 and 2007, it was not effectively used as
an enforcement tool to levy payments the Federal Government made to contractors. This
situation occurred because the name and the Taxpayer Identification Number (TIN) that the
contractors provided to the hiring Federal agencies did not match the information in the IRS
Master File.
In a July 2001 report, the Government Accountability Office reported that the IRS could increase
annual collections if contractors’ payments were included in the continuous levy program.3 In
April 2007, the Government Accountability Office reported4 it estimated that approximately
60,000 Federal contractors owed approximately $7 billion in delinquent Federal taxes. The
recommendations from the 2007 report included requiring contractors doing business with the
Federal Government to provide Federal agencies with the same name and TIN they use for filing
their Federal tax returns with the IRS. An Interagency Agreement between the IRS and FMS
allows the FMS to systemically levy certain payments it disburses or administers through its
centralized payment disbursement and debt collection programs. Both centralized programs use
the TIN and name to match outstanding Federal obligations against potential payments that can
be used to reduce the tax debts. When matches are located, the FMS notifies the IRS of the
identified payments, but will not levy payments until an authorization is received from the IRS.5
Continuous levies are generally limited to 15 percent of each payment issued to the taxpayer.
However, under Section 6331(h)(3) of the Tax Code,6 a continuous levy for 100 percent of each

1
  According to USA Spending.gov, there were 263,782 Federal contractors in Fiscal Year 2009.
2
  Taxpayer Relief Act of 1997, Pub. L. No. 105-34, 111 Stat. 788 (codified as amended in scattered sections of
5 U.S.C., 19 U.S.C., 26 U.S.C., 29 U.S.C., 31 U.S.C., 42 U.S.C., and 46 U.S.C. app.). Also, see Appendix VI for a
glossary of terms.
3
  Tax Administration: Millions of Dollars Could Be Collected If IRS Levied More Federal Payments (GAO-01-711,
dated July 2001).
4
  Tax Compliance: Thousands of Federal Contractors Abuse the Federal Tax System (GAO-07-742T, dated
April 2007).
5
  Prior to authorizing the levy, the IRS has to ensure the taxpayer has been issued a Collection Due Process Notice.
6
  26 U.S.C. § 6331(h).
                                                                                                             Page 1
                                Existing Practices Allowed IRS Contractors
                            to Receive Payments While Owing Delinquent Taxes



payment to a vendor for goods or services sold or leased to the Federal Government can apply.
From Fiscal Years 2000 to 2009, the FMS levied nearly $2.4 billion on behalf of the IRS.
Approximately $430 million, or 18 percent, were for levies imposed on delinquent Federal
contractors.
Based on a July 2008 Government Accountability Office report,7 Congress expressed concern
that employers, including contractors, that owe delinquent payroll taxes were not taking
proactive steps to resolve the outstanding tax balances. In the Fiscal Year 2010 budget, the
Department of the Treasury proposed 2 changes to debt collection procedures that would
increase the amount of delinquent taxes collected from Federal contractors by an estimated
$2 billion over 10 years. Specifically, the changes propose to:
      •    Modify administrative requirements so the Department of the Treasury can levy a
           payment much earlier in the debt collection process. The current requirements to issue
           the Collection Due Process Notice prior to the levy can delay the process by up to
           6 weeks. Effective September 27, 2010, the proposed change became law8 and allows the
           IRS to issue levies prior to the Collection Due Process hearing for Federal contractors
           that owe Federal employment tax liabilities identified by the FPLP. When a levy is
           issued prior to a hearing, the taxpayer is allowed an opportunity to have the hearing
           within a reasonable time after the levy.
      •    Increase the amount of tax debt the Department of the Treasury can levy from each
           payment to the Federal contractor. The change would increase the amount available to
           levy from 15 percent to 100 percent of a payment to any Federal contractor. This
           proposal did not become law; however, in Fiscal Year 2011, the Department of the
           Treasury proposed a change to continuous levies for 100 percent of payments to Federal
           contractors who not only provide goods and services, but also the sale or lease of real
           estate and other types of property.
This review was performed at the Wage and Investment Division Automated Levy Program
located in Atlanta, Georgia; the Small Business/Self-Employed Division Office of Collection
Policy in Washington, D.C.; and the Agency-Wide Shared Services Office of Procurement
Policy in Oxon Hill, Maryland, during the period November 2009 through August 2010. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Detailed information on our audit



7
    Tax Compliance: Businesses Owe Billions in Federal Payroll Taxes (GAO-08-617, dated July 2008).
8
    Creating Small Business Jobs Act of 2010, Public Law 111-240, § 2104(a).
                                                                                                      Page 2
                          Existing Practices Allowed IRS Contractors
                      to Receive Payments While Owing Delinquent Taxes



objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                         Page 3
                                  Existing Practices Allowed IRS Contractors
                              to Receive Payments While Owing Delinquent Taxes




                                          Results of Review

Guidelines in the Collection Process Delay the Issuance of Levies to
IRS Contractors That Owe Delinquent Tax Liabilities
From the IRS Procurement Request Transaction System database as of September 30, 2009, we
identified 535 contractors that had an existing contract with the IRS. Our review showed
61 (11.4 percent) of these contractors had 106 delinquent Federal tax accounts9 totaling
approximately $10.6 million.
When a taxpayer has a balance on his or her tax account, the IRS sends a series of notices to
remind the taxpayer to either pay the balance in full or take steps to establish an installment
agreement. If either of these actions is taken, the IRS will not take enforcement actions. We
determined that 49 (80 percent) of the 61 contractors were receiving reminder notices, in
litigation, or working with the IRS to resolve the delinquency with a payment solution.
However, if the taxpayer does not respond to the notices, the tax account is considered
delinquent and is subsequently referred to the Automated Collection System (ACS) where
employees can take enforcement actions.
For 11 (18 percent) of the 61 contractors, the IRS blocked their inclusion in the FPLP. These
contractors had delinquent tax liabilities totaling
approximately $4.3 million as of March 4, 2010.
Existing guidelines require some new ACS accounts             The IRS blocked 11 IRS
to be blocked from inclusion in the FPLP until an IRS       contractors with delinquent
employee determines how to work the case. This                  tax liabilities totaling
process requires employees to contact taxpayers to           approximately     $4.3 million
pursue full payment or establish an installment             from  inclusion   in the FPLP.
agreement and complete research to identify other
levy sources. If unsuccessful, the employees release
the block and the tax account is included in the FPLP. The IRS does not have a process to
inform ACS employees that the taxpayer with whom they are corresponding is an IRS
contractor.
The IRS has guidelines requiring ACS employees to immediately resolve their cases during case
evaluation and provide procedures to conduct research that include specific time periods, such as
30 to 35 days, for those cases that cannot be immediately resolved. The amount of time ACS
employees expended to determine how to work the contractors’ cases averaged 6 months,

9
    The contractors had multiple delinquent tax accounts that included payroll taxes for different tax periods.
                                                                                                                  Page 4
                               Existing Practices Allowed IRS Contractors
                           to Receive Payments While Owing Delinquent Taxes



ranging from 1 week to 22 months.10 During these time periods, none of the contractors took
steps to enter into an installment agreement to resolve the tax delinquency. A case remains
blocked while ACS employees determine how to work it; therefore, the FMS is unable to
conduct its systemic match that identifies payments issued to a contractor. As a result, the IRS is
not immediately informed that there are payments being made to the contractor that are available
for levy. For example, as of March 4, 2010, the IRS made payments totaling $356 million to
8 of 11 contractors while their tax accounts were blocked from inclusion in the FPLP.

Contractors with delinquent tax liabilities received payments from other Federal
agencies
For Tax Year 2009, we identified that 10 of the 11 contractors owing delinquent taxes also
received payments totaling approximately $3.7 billion from other Federal agencies. To identify
the Federal agencies and the payments made, we researched the
contractors’ tax accounts. These agencies included the Defense Finance
and Accounting Service, Department of Homeland Security, Department
of Agriculture, General Services Administration, Department of the
Interior, and Department of Veterans Affairs. Data were not available for
us to determine if these payments were made while the contractors were
blocked from inclusion in the FPLP.
We performed further research of the contractors’ tax accounts to
determine the specific types of taxes that were outstanding. As a result,
we determined that the types and percentage of outstanding taxes and
penalties owed included civil penalties (23 percent), unemployment and corporate taxes
(25 percent), and trust fund taxes (52 percent). Three of the 11 contractors owed approximately
$2.2 million for payroll taxes, often referred to as trust fund taxes. An outstanding balance of
payroll taxes is generally an indication that the employer withheld the tax from the employee’s
salary or wages but did not remit the payments to the IRS. Guidelines allow the IRS to impose a
trust fund penalty equal to 100 percent of the unpaid taxes that are withheld. The penalty is
typically pursued against a “responsible officer” of the employer once the employer itself fails to
pay the taxes. However, the IRS did not assess a trust fund recovery penalty for any of the
contractors and, as of March 4, 2010, ******************1***********************. We
discussed this issue with IRS management and were advised of the following reasons why the
penalty could not be assessed:
     • *************************************1*******************************
         **********************************************************************
         **********************************************************************
         ************************************.

10
  See Appendix V for the activity of the 11 IRS contractors’ tax accounts blocked from enrollment in the FPLP as
of March 4, 2010.
                                                                                                          Page 5
                               Existing Practices Allowed IRS Contractors
                           to Receive Payments While Owing Delinquent Taxes



     • **********************************1*********************************
         ***************************************************
In July 2008, the Government Accountability Office reported that, “The IRS’s overall approach
of focusing primarily on voluntary compliance, even for egregious payroll tax offenders,
generally results in minimal tax collected from those offenders. Additionally, the IRS has not
always taken timely action to hold responsible parties personally liable for unpaid payroll taxes.”
On March 17, 2009, IRS management issued an internal memorandum referring to the
Government Accountability Office statement and added that those responsible parties
consistently not paying employment taxes have serious consequences to its voluntary compliance
system. The memorandum stated that two IRS teams were developing short- and long-term
recommendations for actions to resolve the issues and address barriers that impede the effective
use of collection tools.
Our review found that the IRS can improve its efforts to reduce the tax gap by adopting a more
thorough practice of identifying sources of payments awarded to contractors with delinquent tax
liabilities. For example, despite receiving millions of dollars from the Federal Government,
8 contractors still have delinquent tax liabilities as of March 4, 2010, totaling approximately
$4.2 million.11 The amount of delinquent taxes that could have been collected if the tax accounts
for the 8 contractors (that received payments from the IRS) had not been blocked from inclusion
in the FPLP totaled almost $3.8 million.12 The remaining three contractors had subsequently
paid their delinquent taxes.13
Both Congress and the Administration agree that a sharper focus on tax evasion is a way to
reduce the tax gap. When existing procedures hamper the IRS’s ability to collect taxes,
contractors will continue to receive revenue from the Federal Government without fulfilling their
tax obligations.

Contractors with delinquent tax liabilities received payments while efforts to
collect delinquent taxes were suspended
We identified 5 contractors with delinquent taxes totaling approximately $4.2 million14 that were
blocked from inclusion in the FPLP because their delinquent tax accounts had a suspended
collection status. For tax accounts in this status, an indicator is placed on the tax account which
suppresses all enforcement actions.




11
   See Appendix V for the eight contractors with delinquent tax liabilities as of March 4, 2010.
12
   See Appendix IV for the delinquent tax owed by the eight IRS contractors as of March 4, 2010.
13
   See Appendix V for the activity of the 11 IRS contractors’ tax accounts blocked from the FPLP as of
March 4, 2010.
14
   See Appendix V for the five contractors and the delinquent tax owed as of March 4, 2010.
                                                                                                         Page 6
                            Existing Practices Allowed IRS Contractors
                        to Receive Payments While Owing Delinquent Taxes



IRS guidelines state three reasons which allow a taxpayer’s account to be suspended from
collection. Specifically:
   •   Hardship: The taxpayer may be in compliance with current filing and payment
       requirements, but is unable to pay the back taxes. Collection is deferred until the
       taxpayer’s ability to pay the back taxes improves.
   •   Liquidation: The taxpayer may have gone out of business or cannot be located and there
       never will be any collection potential. Also, the taxpayer may have undergone a
       bankruptcy action.
   •   Questionable tax assessment: The taxpayer has contacted the IRS and indicated
       disagreement with the assessment. For these cases, the taxpayer agrees to provide
       information to support and corroborate the claim.
All five contractors questioned the tax assessments and provided the IRS with information to
substantiate why they believed they did not owe the tax. Our research showed that it took the
IRS an average of 8 months to review and determine if the information provided was sufficient
to adjust the outstanding balance. While the IRS was reviewing the contractors’ accounts, the
tax accounts remained in a suspended collection status and the contractors received payments
totaling approximately $356 million from the IRS and approximately $3.6 billion from other
Federal agencies.
The IRS does not have guidelines requiring employees to respond to taxpayers’ questions about
their delinquent tax liabilities within a specific time period or how long the indicator will remain
on a tax account. The lack of guidelines impacts the IRS’s ability to efficiently collect taxes
even when sources of payments are available to levy. As of March 4, 2010, the tax accounts for
the five contractors had not been resolved and they had not been included in the FPLP. We
discussed all of these cases with IRS management and were advised that it is at the discretion of
IRS employees to determine the length of time needed to resolve the tax disputes.
The IRS mission is to provide American taxpayers with top quality service by helping them
understand and meet their tax responsibilities and by applying the tax law with integrity and
fairness. We believe contractors that contract with the IRS should be held to a higher
compliance standard than other contractors that conduct business with the Federal Government
because of the IRS’s mission and its goals to enforce the tax law to ensure everyone meets their
obligation to pay Federal taxes.

Recommendations
The Commissioner, Small Business/Self-Employed Division, should:
Recommendation 1: Review its current process to identify opportunities to expedite levying
Federal contractor cases, including IRS contractors that are in a blocked status. In addition, the

                                                                                             Page 7
                           Existing Practices Allowed IRS Contractors
                       to Receive Payments While Owing Delinquent Taxes



Commissioner, Small Business/Self-Employed Division, should work with the other IRS
business units to ensure that timely enforcement actions are occurring on suspended Federal
contractor cases.
       Management’s Response: IRS management agreed with this recommendation.
       They will review the IRS’s current process, collaborate with other IRS Business units,
       and update the appropriate operational guidelines, if necessary.
       Office of Audit Comment: The IRS agreed with our recommendation, but did not
       agree with our reported outcome measure. Specifically, the IRS stated that the calculation we
       used to determine the revenue considers cases in a suspended collection (adjustment pending)
       status as available for levy through the FPLP. In these instances, taxpayers have submitted
       evidence that raise legitimate concerns about the accuracy of an underlying tax assessment.
       The IRS has a responsibility to investigate the merit of a taxpayer’s claim before initiating
       enforced collection activity. If the IRS determines that the underlying tax assessment is
       inaccurate, the taxpayer’s account is adjusted to the correct amount. If the IRS denies the
       taxpayer’s claim, the account is returned to the Collection function for appropriate action.
       We agree that the IRS should investigate the merit of the taxpayer’s claim before
       initiating enforced collection activity. However, the contractors were in suspended
       collection status an average of 8 months (ranging from 1 to 22 months) while the IRS
       evaluated if the information provided by the contractor would resolve the tax liability.
       We continue to believe the IRS could improve the timeliness of these cases by taking a
       more active enforcement approach to restrict or suspend payments to the contractors if
       they are not making attempts to resolve their tax liability within a reasonable time period.
       Furthermore, we believe these efforts will minimize negative public perceptions and help
       ensure all Federal contractors are held to high standards regarding their compliance with
       the Nations’ tax laws.
Recommendation 2: Review all IRS contractors with delinquent payroll taxes and enforce
the trust fund recovery penalty, when appropriate.
       Management’s Response: IRS management agreed with this recommendation.
       They will continue to utilize current internal guidelines to enforce the penalty, when
       appropriate.

Improvements Are Needed to Identify IRS Contractors With
Delinquent Tax Liabilities
For 3 (27 percent) of the 11 contractors, our results showed they were blocked from inclusion in
the FPLP despite having delinquent tax liabilities totaling $3.7 million at the time the IRS
awarded the original contract. Beginning in January 1993, the Agency-Wide Shared Services



                                                                                             Page 8
                             Existing Practices Allowed IRS Contractors
                         to Receive Payments While Owing Delinquent Taxes



Policy and Procedures Memorandum15 provided standard procedures for IRS contracting officers
to apply when determining the financial health of prospective contractors that owe delinquent
taxes. Specifically:
     •   Contracting officers in Procurement are required to request the Director, Revenue
         Reporting, in the Office of the Chief Financial Officer, to complete a tax check to
         determine the existence of tax indebtedness. The information is returned to the
         contracting officer within 2 business days and forwarded to the Director, Procurement
         Policy, if it indicates a delinquent tax liability.
     •   The Director, Procurement Policy, conducts a
         financial capability survey, which includes
         reviewing Dun and Bradstreet financial reports                Contracting officers in
         that include information such as assets, sales,          Procurement are not consistently
         liabilities, and profits.                                notifying the Director, Collection
                                                                    Policy, when contractors with
Although delinquent taxes may indicate serious issues                delinquent tax liabilities are
that could jeopardize contract performance, it alone                   awarded IRS contracts.
rarely precludes a contractor from obtaining a contract.
When a contract is awarded to a contractor that has a delinquent tax liability, the Director,
Collection Policy, in the Small Business/Self-Employed Division, is notified by Procurement
employees that a contract was issued and the contractor has a Federal tax debt. The Director,
Collection Policy, determines whether the information should be referred to a revenue officer to
conduct a requested courtesy investigation. The purpose of the investigation is to resolve the
outstanding delinquent tax liabilities (i.e., establish an installment agreement to repay the
outstanding taxes) and identify sources of income available for the IRS to levy.
For all three cases, revenue officers did not complete a courtesy investigation. We discussed
these cases with the Office of Collection Policy and were advised that a compliance check was
not completed because the Director, Collection Policy, did not receive the required notification
from Procurement. Our results showed that none of the contractors established an installment
agreement and, as of Tax Year 2009, the contractors received payments totaling approximately
$4.1 billion from the IRS and other Federal agencies. Figure 1 shows the results from our
analyses of tax accounts for the three contractors that had delinquent tax liabilities at the time the
IRS awarded the contract.




15
  Agency-Wide Shared Services Policy and Procedures Memorandum No. 9.1 provides that IRS employees will
complete a tax check on prospective contractors for all IRS solicitations more than $250,000.
                                                                                                   Page 9
                                  Existing Practices Allowed IRS Contractors
                              to Receive Payments While Owing Delinquent Taxes



Figure 1: Analysis of Tax Accounts of the Three IRS Contractor Cases in Which
Delinquent Tax Liabilities Were Owed When the Contracts Were Awarded

                                                       Amount of Taxes
                                                                                 Total Amount
                                  Amount of            Owed When Audit                             Amount       Amount of
                                                                                 IRS Paid on
                                 Taxes Owed             Was Completed                           Received From   Payments
                                                                                 the Contract
  Case       Date of Latest     When Tax Check              As of                               Other Federal   Levied by
                                                                                 While Taxes
 Number       Tax Check         Was Completed           March 4, 2010                             Agencies      the FPLP
                                                                                  Were Owed

                                 *************************1*********************************


Source: Our analysis of IRS contracting officer files and the IRS’s Integrated Data Retrieval System between
November 4, 2009, and March 4, 2010.

Neither the Federal Acquisition Regulation (FAR) nor the IRS has established guidelines that
require the IRS to complete an annual tax check or a tax check at the time the decision is made to
exercise an option to renew a contract. As a result, courtesy investigations by revenue officers
cannot be conducted. Results showed 474 (89 percent) of 535 contractors we reviewed did not
have a delinquent tax liability at the time of our review. However, without adhering to
procedures requiring annual tax checks, courtesy investigations, and the sharing of information
with the Office of Collection Policy, the IRS may not be aware when contractors subsequently
become delinquent or that a source of income is available to levy. The Treasury Inspector
General for Tax Administration conducted a separate review and made a recommendation to
address this issue.16

Federal and IRS guidelines are inconsistent and may result in contractors not
accurately completing their annual self certifications
Seven (64 percent) of the 11 contractors did not properly follow Federal guidelines requiring the
completion of an annual self certification to notify Federal agencies when they have an
outstanding tax liability. The FAR17 policy provides that “…no purchase or award shall be made
unless the contracting officer makes an affirmative determination of responsibility.” As such,
new and existing Federal contractors whose contracts exceed $100,000 and who owe more than
$3,000 in taxes are required to annually self certify.18 The certification requires positive or
negative responses to questions regarding suspension, debarment, ineligibility to receive Federal
contracts, civil and criminal convictions and judgments, tax evasion, and tax delinquency.
Contractors submit the self certifications to the General Services Administration and are
maintained on its Online Representations and Certifications Application System. We reviewed
the Online Representations and Certifications Application System and none of the seven IRS
16
   Federal Guidelines Do Not Prohibit the Awarding of Contracts to Contractors With Delinquent Tax Liabilities
(Reference Number 2010-30-120, dated September 28, 2010).
17
   Federal Acquisition Regulation, 48 C.F.R. ch. 1 (2009). See Subpart 9.103.
18
   Federal Acquisition Regulation, 48 C.F.R. ch. 1 (2009). See § 52-905.
                                                                                                                 Page 10
                           Existing Practices Allowed IRS Contractors
                       to Receive Payments While Owing Delinquent Taxes



contractors had self certified that they had a tax delinquency. Contractors may not be responding
with a positive answer because of an inconsistency in the definition of a tax delinquency between
the Federal and IRS guidelines. Specifically, the two definitions provided are:
    •   For FAR purposes, Federal taxes are considered delinquent when the tax liability is
        finally determined and when the taxpayer is delinquent in making a payment.
    •   For IRS purposes, Federal taxes are considered delinquent when there is a tax account
        balance due, even if payments are being made.
We believe the inconsistency between these definitions could be causing contractors to certify
that they do not have a tax delinquency when in fact they do have a delinquent tax liability. The
IRS provided us with the results from a May 2008 ruling by the Civilian Agency Acquisition
Council concerning the delinquent tax definition. The Council assists the Administrator of
General Services in developing or reviewing all proposed changes to the FAR. The Council
considered using the IRS’s definition; however, they were concerned that it did not allow the
possibility for further dispute of the tax liability, for IRS error, or whether the taxpayer is
currently required to pay the liability. As a result, the Council ruled that a different definition
was warranted. The IRS did not provide a response to the Council’s concerns. Instead, it
provided that the FAR has been consistently held by the Federal courts to have “the force and
effect of law.” We believe the IRS’s practice and established structure recognizes taxpayer
entitlements and rights of appeals, which impact when a tax account is delinquent. Therefore,
we conclude that the ruling needs to be revisited.
President Obama and Congress view increased enforcement on tax evasion as a way to reduce
the tax gap. On January 20, 2010, the President issued a Memorandum for the Heads of
Executive Departments and Agencies directing the Commissioner of the IRS to conduct a
review of the annual self certifications and report on the overall accuracy of the contractors’
certifications. The Commissioner was to provide a report within 90 days (April 20, 2010) to the
Office of Management and Budget on the overall accuracy of contractors’ certifications. The
report is being reviewed by the Department of the Treasury. We reviewed a draft copy of the
report, which also revealed inaccuracies with how several contractors self certified that they did
not owe tax when they did. The IRS did not provide a reason for the inaccuracy, but added that
some contractors paid their tax liability in full within the self-certification period. Although the
tax liability was paid, we believe the inconsistency between the two definitions may have caused
the contractors to inaccurately self certify.
The President also directed the Department of the Treasury and the Office of Management and
Budget to evaluate agencies’ contract award processes and make recommendations to ensure
that contractors with serious tax delinquencies do not receive new work from Federal agencies.
The Office of Management and Budget sent out surveys to the Heads of Executive Departments
and Agencies and requested responses by March 17, 2010. Auditors did not review any
responses to the surveys as part of this review because they were not available. However, the

                                                                                           Page 11
                              Existing Practices Allowed IRS Contractors
                          to Receive Payments While Owing Delinquent Taxes



Treasury Inspector General for Tax Administration has completed a separate review and issued
a report that evaluated whether the IRS followed procedures when awarding contracts to
contractors with delinquent tax liabilities.19 Because Federal guidelines prevent IRS contracting
officers from precluding the awarding of a contract solely for delinquent tax liabilities, our
auditors contacted the procurement offices for all 50 States to determine if contracts were
awarded to contractors that have delinquent State tax liabilities. Nine of the States’ procurement
officers responded, and three stated their guidelines preclude noncompliant contractors from
doing business with their State agencies. We are not making a recommendation in this report
that the IRS not award contracts to contractors with delinquent taxes because this issue is
addressed in the separate Treasury Inspector General for Tax Administration review.

Recommendations
Recommendation 3: The Chief, Agency-Wide Shared Services, should ensure Procurement
employees follow procedures to notify the Director, Collection Policy, when a contract is issued
to a contractor with a Federal tax debt so the courtesy investigations can be conducted and efforts
can be taken to resolve the delinquent tax liabilities.
        Management’s Response: IRS management agreed with this recommendation. The
        Office of Procurement Policy conducted lessons learned training throughout Procurement
        this year that included an emphasis on the use of the required contract file checklists,
        which includes the completion of tax checks. Additionally, two separate lessons learned
        training sessions were conducted for managers who review contract files to emphasize
        key areas to review for compliance. Contract file review workshops are planned for the
        future and will include tax check responsibilities.
Recommendation 4: The Deputy Commissioner for Operations Support should coordinate
with the Department of the Treasury and the Civilian Agency Acquisition Council regarding the
definition of delinquent taxes in the FAR to ensure consistency with the IRS’s definition. This
effort will assist in making sure that contractors properly complete the annual certifications when
required. Also, procedures should be established to address actions the IRS will take when
contractors do not accurately self certify that they do not have a tax delinquency.
        Management’s Response: IRS management agreed with this recommendation and is
        initiating an internal review. The Director, Procurement, is scheduled to meet with the
        Office of Management and Budget to gain an understanding of the role contracting
        officers can and should play in conducting tax checks on contractors doing business with
        the Federal Government and to discuss the definition of delinquent taxes as defined by
        the FAR and the IRS.


19
  Federal Guidelines Do Not Prohibit the Awarding of Contracts to Contractors With Delinquent Tax Liabilities
(Reference Number 2010-30-120, dated September 28, 2010).
                                                                                                       Page 12
                                  Existing Practices Allowed IRS Contractors
                              to Receive Payments While Owing Delinquent Taxes



                                                                                                       Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to determine why IRS contractors, owing millions of dollars in
delinquent taxes and previously selected for the FPLP, have accounts blocked from levy.1 This
includes the impact on the IRS’s ability to easily identify guaranteed disbursements that can be
used to offset the outstanding debt and potentially reduce the tax gap. To accomplish this
objective, we:
I.         Determined whether the IRS had adequate internal controls to provide oversight of IRS
           contractors with delinquent Federal taxes.
           A. Researched IRS directives, IRS Memoranda, Internal Revenue Manuals, the FAR,
                Internal Revenue Code sections, and Executive Orders to identify policy and
                procedures for evaluating tax compliance for contractors, awarding contracts to
                contractors with delinquent Federal taxes, and determining contractor’s participation
                in the FPLP.
           B. Identified IRS functional offices with oversight responsibility for identifying
                contractors with delinquent Federal taxes and sources of payments received from
                other Federal agencies.
           C. Discussed with IRS personnel their understanding of procedures that allow the
                awarding of contracts to contractors with potential and existing delinquent Federal
                taxes.
    II.    Determined whether employees adhere to Compliance function guidelines when blocking
           contractors’ inclusion in the FPLP.
           A. Obtained the IRS Procurement Request Transaction System database of all active IRS
              contract awards as of September 30, 2009. We identified 825 contracts awarded to
              535 contractors. We conducted a data reliability assessment of certain fields in the
              database and compared them to entity data on the IRS Master File using the
              Integrated Data Retrieval System. We verified all data and noted that differences
              were due to timing between when the data were pulled and validated.
           B. Obtained the TIN to request and review the tax accounts for each contractor. We
              identified 106 delinquent tax accounts that belonged to 61 contractors.2 For each
              contractor, we determined the age of the delinquent tax liability, whether the

1
    See Appendix VI for a glossary of terms.
2
    The contractors had multiple delinquent tax accounts that included payroll taxes for different tax periods.
                                                                                                                  Page 13
                          Existing Practices Allowed IRS Contractors
                      to Receive Payments While Owing Delinquent Taxes



           contractor was blocked from inclusion in the FPLP, whether the account was
           designated uncollectible, and whether payments were made to the tax account from
           installment agreements or IRS enforcement actions.
       C. Reviewed and stratified cases to determine how many contractors had delinquent tax
          liabilities greater than or equal to $100.
       D. Reviewed tax returns to determine whether sufficient information was available for
          IRS employees to suppress collection activity, including blocking/releasing inclusion
          in the FPLP.
       E. Obtained and reviewed extracts from the IRS Procurement Request Transaction
          System database that contained detailed procurement receipt and acceptance data for
          the cases identified in Step II.B., such as the amounts and dates of payments the
          contractor received from the IRS, the total amount paid to the contractor after the date
          the tax liability was designated delinquent, and the total amount paid to the contractor
          after being blocked from the FPLP or the account was designated uncollectible.
       F. Evaluated the effectiveness of existing internal controls and processes to block
          contractors from participating in the FPLP.
III.   Determined whether the IRS contractors identified in Step II.B. had contracts with other
       Federal agencies and received payments that could have been levied.
       A. Researched the Information Return Master File portion of the Integrated Data
          Retrieval System for the most recent income data available for the contractor tax
          accounts to determine the amounts and sources of income awarded to the contractor
          from the following:
           1. Information Return for Federal Contracts (Form 8596) that contains the agency
              name, the date the award was issued, the length of the award, and the amount of
              the award.
           2. Miscellaneous Income (Form 1099-MISC) that reports the amounts of the award
              the agency has already paid to the contractor.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS’s policies and procedures that
govern awarding contracts and enforce collection activities and payment solutions for delinquent
taxes, memorandums issued by the President, and the FAR for Federal agencies regarding
awarding contracts and annual self certifications. We evaluated these controls by research and

                                                                                          Page 14
                          Existing Practices Allowed IRS Contractors
                      to Receive Payments While Owing Delinquent Taxes



comparisons, interviewing management, and analyzing data in the IRS and General Services
Administration computer systems.




                                                                                     Page 15
                          Existing Practices Allowed IRS Contractors
                      to Receive Payments While Owing Delinquent Taxes



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit, (Compliance and Enforcement
Operations)
Frank Jones, Director
Marybeth Schumann, Director
Deborah Smallwood, Audit Manager
Andrea Barnes, Lead Auditor
Ali Vaezazizi, Auditor
Joel Weaver, Auditor




                                                                                       Page 16
                        Existing Practices Allowed IRS Contractors
                    to Receive Payments While Owing Delinquent Taxes



                                                                  Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Chief, Agency-Wide Shared Services OS:A
Chief Financial Officer OS:CFO
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Collection SE:S:C
Director, Procurement OS:A:P
Deputy Director, Procurement OS:A:P
Director, Collection Policy SE:S:C:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Deputy Commissioner for Operations Support OS
       Deputy Commissioner for Services and Enforcement SE
       Chief, Agency-Wide Shared Services OS:A
       Chief Financial Officer OS:CFO
       Commissioner, Small Business/Self-Employed Division SE:S




                                                                        Page 17
                                  Existing Practices Allowed IRS Contractors
                              to Receive Payments While Owing Delinquent Taxes



                                                                                                    Appendix IV

                                         Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. The benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•      Increased Revenue – Actual; $3,766,609 is the amount of delinquent taxes that could have
       been collected if the tax accounts for the eight contractors that received payments from the
       IRS had not been blocked from inclusion in the FPLP (see page 3).

Methodology Used to Measure the Reported Benefit:
We requested the list of all active contracts in the IRS Procurement Request Transaction System
database as of September 30, 2009. Specifically:
       •   The database contained records for 535 contractors that were awarded 825 IRS contracts.
       •   We matched the 535 contractor TINs against the IRS’s Business Master File1 data and
           identified 17,169 tax accounts.2
       •   We analyzed the data and identified 106 tax accounts with a delinquent tax balance equal
           to or greater than $100. These tax accounts represented 61 unique contractors.
       •   We researched the contractors’ tax accounts and determined 8 contractors with
           delinquent taxes, as of March 4, 2010, that totaled $4,258,111 were blocked from
           inclusion in the FPLP. From the date the contracts were awarded through the latest
           available payment data, these contractors received approximately $356 million from the
           IRS that could have been levied. See the table that follows for the amounts that could
           have been levied.




1
    See Appendix VI for a glossary of terms.
2
    The contractors had multiple delinquent tax accounts that included payroll taxes for different tax periods.
                                                                                                                  Page 18
                     Existing Practices Allowed IRS Contractors
                 to Receive Payments While Owing Delinquent Taxes




                                                Amount the IRS Paid
                                                                       15 Percent of Amount
       Case #          Delinquent Tax Owed      While Blocked From
                                                                      Paid, if Included in FPLP
                                                     the FPLP

                                  *****1*****




        Total              $       4,258,111         $ 356,492,010            $       3,766,609
Source: Our analysis of the IRS’s Integrated Data Retrieval System between November 4, 2009,
and March 4, 2010.

 * FPLP levies are generally limited to 15 percent of each payment issued to the
   contractor. For these cases, 15 percent of the amount paid if they had been
   included in FPLP is limited to the amount of delinquent taxes owed.




                                                                                                  Page 19
                                 Existing Practices Allowed IRS Contractors
                             to Receive Payments While Owing Delinquent Taxes



                                                                                                  Appendix V

       Activity of Eleven IRS Contractors’ Tax Accounts
       Blocked From the Federal Payment Levy Program
                      As of March 4, 2010

                 Number                          Total Payments
                    of                         Received From the
                 Months                        IRS From the Date        Total Payments         Amount Paid by
                 Blocked                      the Tax/Penalty Was      Received From All    Contractor or Levied by
                  From      Delinquent Tax     Assessed Through       Federal Agencies in       the FPLP as of
                       1
      Case #      FPLP           Owed             March 4, 2010          Tax Year 2009           March 4, 2010

                                                 *******1**********




       Total                  $ 4,269,163       $   467,422,979         $3,676,962,939             $ 58,723
    Source: Our analysis of IRS’s Integrated Data Retrieval System between November 4, 2009, and March 4, 2010.
    ************************1***************************************************************
     ****************************************************************************************
    ***************************************************************************************
      *************************************************************************************
    ****************************************************************************************
      ***************************************************************************************
    *****************************************************************************************
      ***************************************************************************************
      ***************************************************************************************
    *****************************************************************************************
      *******************************************************.

1
    Indicates the number of months the account was blocked as of March 4, 2010, the last day of our fieldwork.
                                                                                                              Page 20
                           Existing Practices Allowed IRS Contractors
                       to Receive Payments While Owing Delinquent Taxes




                                                                                Appendix VI

                                Glossary of Terms

Automated Collection System (ACS) – A telephone contact system through which telephone
assistors, with access to computerized inventory systems that maintain balance due accounts and
return delinquency investigations, collect unpaid taxes and secure tax returns from delinquent
taxpayers who have not complied with previous notices.
Business Master File – The IRS database that consists of Federal tax-related transactions and
accounts for businesses. These include employment taxes, income taxes on businesses, and
excise taxes.
Centralized Debt Collection Program – This program is also known as the Treasury Offset
Program. It offsets Federal payments to satisfy a person’s overdue Federal debt, child support
obligation, or State income tax debt. The FPLP, a derivative of the Treasury Offset Program,
specifically levies payments to satisfy outstanding Federal tax debts owed to the IRS.
Centralized Payment Disbursement Program – This program is used to issue Federal
payments to varied recipients including contractors. The FMS is the primary disburser of
payments to individuals and businesses on behalf of Federal agencies (e.g., benefit payments
paid by the Social Security Administration or the Department of Veterans Affairs, Federal
income tax refund payments, payments to contractors doing business with the Federal
Government). The majority of the payments are disbursed through electronic funds transfers.
Civil Penalties – Penalties that are generally assessed because of discrepancies with the names
and Social Security Numbers the employer uses on payroll-related documents such as Wage and
Tax Statements (Form W-2) or Miscellaneous Income (Form1099-MISC).
Collection Due Process Notice – A notice of intent to levy and notice of a right to a Collection
Due Process hearing generally must be issued to the taxpayer prior to a levy when there is a
balance due on an account and the taxpayer has been asked previously to pay. For levies issued
after September 27, 2010, the IRS can issue a levy against a Federal contractor who owes
Federal employment tax liabilities without providing notice and the right to a prior hearing.
However, the contractor would be entitled to a hearing within a reasonable time after issuance of
the levy.
Contracting Officer – A contracting officer is an agent of the Federal Government empowered
to execute contracts and obligate Government funds.



                                                                                         Page 21
                            Existing Practices Allowed IRS Contractors
                        to Receive Payments While Owing Delinquent Taxes



Dun and Bradstreet Financial Reports – Statistical reports that provide accurate and complete
information such as assets, sales, liabilities, and profits. These data are used as indicators to
evaluate how well contractors pay their bills and help assess their risk and eligibility to be
awarded a contract.
Federal Acquisition Regulation (FAR) – A regulation established to codify uniform policies
for acquisition of supplies and services by executive agencies.
Financial Management Service (FMS) – A bureau of the Department of the Treasury charged
with providing Government-wide accounting and reporting services and managing the collection
of delinquent debt.
Information Return Master File – The portion of the IRS Master File where individual and
business taxpayer information documents are compiled. The documents contain data often used
for filing, verifying, and validating income and expenses.
Integrated Data Retrieval System – The IRS computer system capable of retrieving or
updating stored information; it works in conjunction with a taxpayer’s account records.
Interagency Agreement – A written agreement entered into between two Federal agencies that
specifies the goods, services, or tasks to be accomplished.
Levy – Generically refers to seizure of property to collect a debt. For tax debts, it is the legal
process by which the IRS orders a third party to turn over property in its possession (e.g., the
Federal Government payment) that belongs to the tax debtor.
Master File – The IRS database that stores various types of taxpayer account information. This
database includes individual, business, and employee plans and exempt organizations data.
Online Representations and Certifications Application System – An e-Government initiative
that was designed to replace the paper-based Representations and Certifications process vendors
are required to complete regarding responsibility matters.
Payroll Taxes – Amounts employers withhold from employee’s wages for Federal income taxes,
Social Security, and Medicare, as well as the employer’s mandatory matching contributions for
Social Security and Medicare taxes.
Responsible Officer – An individual the IRS determines to be responsible for collecting,
accounting for, and paying payroll taxes to the appropriate government entities.
Revenue Officer – IRS employees who attempt to contact taxpayers and resolve collection
matters that have not been resolved through notices sent by the IRS campuses or the ACS.
Tax Check – A method for contracting officers to obtain and use information concerning the
Federal tax delinquencies of prospective contractors and subcontractors to be considered when
determining financial responsibility.


                                                                                              Page 22
                            Existing Practices Allowed IRS Contractors
                        to Receive Payments While Owing Delinquent Taxes



Tax Code – A complex law, also known as the Internal Revenue Code, enacted by Congress in
Title 26 of the United States Code to provide revenue for the Federal Government and to achieve
social, economic and political goals.
Tax Gap – The difference between the annual Federal tax obligation and the amount of tax the
taxpayer pays voluntarily and timely. The tax gap consists of those who do not file their returns,
do not make their payments on time, and file returns but underreport their income or over report
their expenses.
Taxpayer Identification Number (TIN) – A nine-digit number assigned to taxpayers for
identification purposes. Depending upon the nature of the taxpayer, the TIN is an Employer
Identification Number, a Social Security Number, or an Individual TIN.
Trust Fund Recovery Penalty – A penalty applied against 100 percent of the trust fund taxes
owed after 60 days of notifying the taxpayer/employer for one of the following conditions:
(1) the employer willfully failed to withhold the tax; (2) the employer willfully failed to account
for and remit the tax; and (3) the employer willfully attempted to evade or defeat payment of the
tax.
Trust Fund Taxes – The employer withholds, accounts for, and remits taxes held in trust for
other taxpayers which are employees. The taxes are accounted for on the employees’ annual
FormW-2.
Unemployment Taxes – Unemployment taxes are reported on the Employer’s Federal
Unemployment Tax (Form 940). Together with State unemployment tax, the Federal
unemployment tax provides funds for paying unemployment compensation to workers who have
lost their jobs.
Voluntary Compliance – A system of compliance that relies on individual citizens to report
their income freely and voluntarily, calculate their tax liability correctly, and file a tax return on
time.




                                                                                               Page 23
           Existing Practices Allowed IRS Contractors
       to Receive Payments While Owing Delinquent Taxes



                                                Appendix VII

Management’s Response to the Draft Report




                                                          Page 24
    Existing Practices Allowed IRS Contractors
to Receive Payments While Owing Delinquent Taxes




                                                   Page 25
    Existing Practices Allowed IRS Contractors
to Receive Payments While Owing Delinquent Taxes




                                                   Page 26
    Existing Practices Allowed IRS Contractors
to Receive Payments While Owing Delinquent Taxes




                                                   Page 27
    Existing Practices Allowed IRS Contractors
to Receive Payments While Owing Delinquent Taxes




                                                   Page 28
    Existing Practices Allowed IRS Contractors
to Receive Payments While Owing Delinquent Taxes




                                                   Page 29
